                                        SOCIAL SECURITY

MEMORANDUM

Date:      May 16, 2008                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 13 of the Social
           Security Administration’s (SSA) performance indicators established to comply with the
           Government Performance and Results Act. Attached is the final report presenting the
           results of three of the performance indicators PwC reviewed. For the performance
           indicators included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in SSA’s Fiscal Year 2006 and
               2007 Performance and Accountability Reports.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

           This report contains the results of the audit for the following indicators:

           •   Number of SSI [Supplemental Security Income] disabled beneficiaries earning at
               least $100 per month.
           •   Number of Supplemental Security Income (SSI) non-disability redeterminations
               processed.
           •   Number of periodic CDRs [Continuing Disability Reviews] processed to determine
               continuing entitlement based on disability.
Page 2 – The Commissioner


Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE INDICATOR AUDIT:
    POSTENTITLEMENT ACTIONS


     May 2008    A-15-07-17130



AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      May 1, 2008

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)

OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires that the
Social Security Administration (SSA) develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in SSA’s Fiscal Year
              (FY) 2006 and 2007 Performance and Accountability Reports (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.




1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                 1
BACKGROUND
We audited the following performance indicators, as stated in the SSA FY 2006 or FY
2007 PAR. 5

    Performance Indicator                               Goal                   Reported Results

    Number of SSI [Supplemental Security                FY 2006                FY 2006 Actual
    Income] disabled beneficiaries 6 earning at         268,419                247,143
    least $100 per month 7
    Number of Supplemental Security Income              FY 2007                FY 2007 Actual
    (SSI) non-disability redeterminations               1,026,000              1,038,948
    [(RZ)] processed 8
    Number of periodic CDRs [Continuing                 FY 2007                FY 2007 Actual
    Disability Reviews] processed to                    729,000                764,852
    determine continuing entitlement based
    on disability 9

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI),
and SSI programs. The OASI program, authorized by Title II of the Social Security Act
(Act), provides income for eligible workers and for eligible members of their families and
survivors. 10 The DI program, also authorized by Title II of the Act, provides income for
eligible workers with qualifying disabilities and for eligible members of their families,
before those workers reach retirement age. 11 The SSI Program, authorized by Title XVI
of the Act, was designed as a needs-based program to provide or supplement the
income of aged, blind, and/or disabled individuals with limited income and resources. 12




5
 The period of review for indicator, "Number of SSI disabled beneficiaries earning at least $100 per
month," was FY 2006. The period of review for indicators, "Number of Supplemental Security Income
(SSI) non-disability redeterminations processed" and "Number of periodic CDRs processed to determine
continuing entitlement based on disability," was FY 2007.
6
  Although SSA uses the term “beneficiaries” in the title of this performance indicator, the term “recipients”
is typically used when describing individuals who receive SSI.
7
    SSA FY 2006 PAR, p. 83.
8
    SSA FY 2007 PAR, p. 70.
9
    Id. p. 71.
10
     The Act §§ 201-234, 42 U.S.C. §§ 401-434.
11
     Id.
12
     The Act §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                         2
To ensure continuous and correct payment of claims, SSA periodically performs
reassessments of SSI recipients’ non-medical factors (SSI Non-Disability RZs) as well
as reassessments of DI and SSI beneficiaries’ disability factors (periodic CDRs) to
determine ongoing benefit eligibility.

SSI RZs are post-eligibility reviews of SSI non-medical factors, such as income,
resources, and living arrangements. This information is used to determine recipients’
financial eligibility for continued payment. RZs are scheduled based on the likelihood of
changes in circumstances that may affect the payment amount. Unscheduled RZs are
completed on an “as needed” basis and are triggered when SSA learns of certain
changes in circumstances that could affect the continuing SSI payment amount.

SSA completes periodic DI and SSI CDRs to determine whether a disabled individual
continues to be medically eligible to receive benefits. Periodic CDRs are required at a
minimum of every 3 years 13 unless SSA has determined the disability was classified as
permanent, or the beneficiary has enrolled in the Ticket to Work program. 14 Periodic
CDRs are conducted by questionnaire (mailer) or by a medical reexamination of the
beneficiaries’ disability.

RESULTS OF REVIEW
Overall, we found the three indicators to be meaningful. However, our assessment
identified issues with internal controls and data reliability for the three indicators in this
review. Specifically, we noted weaknesses in the operating effectiveness of access
controls related to application transactions. Specific to the indicators, "Number of
Supplemental Security Income (SSI) non-disability redeterminations processed" and
"Number of periodic CDRs processed to determine continuing entitlement based on
disability," we noted programmers had update access to production datasets. It should
be noted that during the audit, SSA management took corrective action to address
these issues. However, as a result of the internal control weaknesses that existed
during the period of review, we did not find the performance indicators data to be
reliable.

We did not identify any significant exceptions related to the accuracy of presentation or
disclosure of the information related to these indicators contained in the PAR or to the
meaningfulness of these indicators.




13
     The Act, § 221(i), 42 U.S.C. § 421(i).
14
     Ticket to Work and Work Incentives Improvement Act of 1999, Pub. L. No. 106-170.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                             3
Number of SSI disabled beneficiaries earning at least $100 per month

Indicator Background

SSA provides work incentive programs to SSI disabled recipients with jobs. These work
incentives include the following.

    •     Ticket To Work - This program is designed to assist disabled beneficiaries to obtain
          employment. Enrollees may use the ticket to obtain the vocational rehabilitation
          services, employment services, and other support services needed to return to
          work or go to work for the first time. As long as a beneficiary is using a ticket (as
          determined under SSA criteria), SSA will not initiate a CDR.
    •     Plan to Achieving Self-Support - This program allows SSI recipients to set
          employment goals and set aside money for these goals. The wages earned under
          this program will not affect their SSI eligibility or payment amount.
    •     Special Benefits under sections 1619(a) and (b) of the Act 15 - These programs
          allow SSI recipients to work without losing SSI and Medicaid eligibility.
    •     Impairment-Related Work Expenses - This program allows SSI recipients to use
          income to obtain items, such as a cane or wheelchair, without the income used to
          obtain such items affecting their SSI eligibility or payment amount.
    •     Blind Work Expenses - This program does not count any earned income that an
          SSI recipient uses to meet expenses that are required for the beneficiary to work.
          Candidates must be receiving SSI payments due to blindness. Blind work expense
          items do not have to be related to their blindness. 16

While participating in the work incentive programs, SSI recipients are required to report
their earnings to SSA. The main methods SSA uses to obtain SSI recipients' earnings
include the following.

•        SSI recipients report their earnings to SSA field offices (FO), SSA’s 1-800 number,
         or by sending a letter to SSA. After receipt of the recipients’ earnings evidence
         (such as pay stubs for wages or a tax return for self-employment), FO staff inputs
         earnings information into the Supplemental Security Record (SSR) via the
         Modernized Supplemental Security Income Claims System (MSSICS).
•        SSA uses information contained in the Master Earnings File (MEF) to determine
         whether there were any unreported earnings or earning discrepancies. The MEF is
         a data repository for the Earnings Record Maintenance System (ERMS), containing
         earnings data from employers and the Internal Revenue Service (IRS). The MEF then
         interfaces with the SSR to provide SSI recipients earnings information in the form of MEF
         alerts/diaries. This interface occurs in October, February and June. SSA also
         receives quarterly State wage data from the Office of Child Support Enforcement.


15
     The Act §§ 1619(a) and (b), 42 U.S.C. §§ 1382h(a) and (b).
16
        http://www.socialsecurity.gov/disabilityresearch/wi/generalinfo.htm#work.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                            4
     As a result, alerts are generated when earned income data on the SSR do not match
     within predefined tolerance levels with the MEF.

SSA uses the information from the MEF and the Office of Child Support Enforcement to
check for any discrepancies. After investigating and reconciling earnings discrepancies,
SSA FO staff corrects or posts verified earnings information into MSSICS, if necessary.
The Supplemental Security Income Records Maintenance System (SSIRMS) processes
the earnings information posted by FO staff to the recipients' SSRs.

Each quarter, the Office of Research, Evaluation, and Statistics receives the Work
Incentive File from the Office of Applications and Supplemental Security Income
Systems. This file contains terminated and active data records that include
beneficiaries’ Social Security numbers and earnings information. The type of
earnings for each beneficiary is recorded as one of the following categories:
S (self-employment), W (wages), C (blind work expense), D (income excluded under
approved plan), T (impairment related work expenses), N (net loss), and B (student
earned income exclusion). These data elements are extracted and formatted into an
Excel file using Statistical Analysis Software. Each quarter, this Excel file is sent to the
performance indicator owner in the Office of Retirement and Disability Policy, Office of
Employment Support Programs. 17 The performance indicator owner manually
calculates the results of the SSI recipients earning at least $100 per month from the
Excel spreadsheet. Each quarter, the performance indicator is sent to the Office of
Strategic Management (OSM) to be incorporated as part of the centralized performance
indicator tracking report.

Performance Indicator Calculation
                                                       Average of the SSI disabled
 Number of SSI disabled beneficiaries            =     beneficiaries earning at least $100 for
 earning at least $100 per month                       the last month of each quarter during the
                                                       fiscal year

The average number of SSI disabled recipients earning at least $100 per month for the
last month of each quarter during the FY is reported in the PAR.

Findings

Internal Controls and Data Reliability

Our review of access controls noted that information technology personnel had
excessive and/or unmonitored access to the Customer Information Control System
(CICS) screens that allowed updates to SSA data via the programmatic mainframe
applications, including MSSICS and ERMS. CICS is a transaction processing system
designed for both on-line and batch activity. SSA management did not appropriately

17
  This function was previously performed by the Office of Disability and Income Security Programs, which
was part of a reorganization effective February 2008.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                  5
monitor access to these transactions. The SSA Information System Security Handbook
(ISSH) states, "Access to all SSA functions associated with software or enterprise
systems must be managed based on need-to-know and least privilege. This specifically
includes changes/updates to software, production jobs, and supporting hardware
deployments. This access control maintenance policy must be applied across the SSA
enterprise." 18 In addition, Office of Management and Budget (OMB) Circular A-130
requires that agencies implement the practice of least privilege, whereby user access is
restricted to the minimum necessary to perform his or her job; and enforce a separation
of duties so steps in a critical function are divided among different individuals. It also
emphasizes the importance of management controls – such as individual accountability
requirements, separation of duties enforced by access controls, and limitations on the
processing privileges of individuals – to prevent and detect inappropriate or
unauthorized activities. 19

This issue was noted during the FY 2006 financial statement audit. Also, during the
audit timeframe, SSA management began monitoring the IT personnel usage of these
transactions. However, because this internal control weakness existed during the
period of review, we did not find the performance indicator data to be reliable.

Number of Supplemental Security Income (SSI) non-disability
redeterminations processed

Indicator Background

SSI non-disability cases are selected for redeterminations based on the date of the
recipients’ last RZ and characteristics that distinguish low-error, middle-error, and high-
error cases. The selected recipients are tracked in the Post-Entitlement Operational
Data Store (PEODS). The RZ data are updated in the SSR, which is the master record
for SSI recipients.

Based on error profiles, the cases are assigned either to the Wilkes-Barre Data
Operations Center (WBDOC) or an FO. Claims representatives at the FO typically
perform high-error profile RZs; however, beginning in October 2006, high-error cases
have been released to the WBDOC for processing. These cases are processed in the
same manner as the low- and middle-error cases, but using different forms, as
discussed below.

Claims representatives (CR) at FOs will handle high-error profile RZs or WBDOC
exclusion cases through face-to-face or telephone interviews. SSA requests that the
SSI recipients bring financial documentation, such as rent receipts or bank records, to
the interviews. During the interview, the CR inputs any changes to the recipients’ non-



18
     SSA ISSH, Section 16.3, p. 49
19
     OMB Circular No. A-130, Appendix III - Security of Federal Automated Information Resources, p. 5.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                     6
medical factors via MSSICS, which updates the SSR with changes to the recipients’
non-medical factors. The SSR provides data to PEODS to update the status of the RZ
once it is completed.

Low- and middle-error profile RZs are reviewed by records processing clerks at the
WBDOC. SSI recipients are mailed forms to complete and return to the WBDOC.
Second requests are mailed out if recipients do not respond to the first mailing within
90 days. If WBDOC does not receive the form within 180 days of the first mailing
(90 days from the second mailing) and no disposition data have been posted, the SSI
and PEODS systems will automatically transfer control of the RZ to the servicing office.
All returned forms are manually reviewed for completeness at the WBDOC. During the
mailer reviews, the records processing clerk inputs changes into MSSICS. If “no
change” is indicated on the form, a completion indicator is posted to the SSR. The SSR
provides data to PEODS to update the status of the RZ once it is completed.

Each week, PEODS transfers the composite high, middle, and low RZ data to the Title
XVI Datawarehouse. Once a month, the Division of Cost Analysis reviews the RZ data
maintained in the Title XVI Datawarehouse and provides the RZ information to OSM.
The year-to-date total of the completed RZs is recorded in the PAR.

Performance Indicator Calculation


Total SSI Non-Disability RZs                         Total Completed RZs for the period of
                                               =
Processed for FY 2007                                October 1, 2006 to September 28, 2007


Findings

Internal Controls and Data Reliability

Our review of access controls revealed the following issues.
• One programmer had unmonitored access to the MSSICS CICS transactions, and
  this access was not reviewed by SSA management.
• One programmer had update access to SSIRMS datasets, and this access was not
  restricted or reviewed by SSA management. 20

The SSA ISSH states, "Access to all SSA functions associated with software or
enterprise systems must be managed based on need-to-know and least privilege. This
specifically includes changes/updates to software, production jobs, and supporting
hardware deployments. This access control maintenance policy must be applied across
the SSA enterprise." 21 In addition, OMB Circular A-130 requires that agencies

20
  SSA management assigned the profile to the individual’s secondary $id; therefore, this finding was
remediated. A $id is the authentication method to access SSA's systems.
21
     SSA ISSH, Section 16.3, p. 49.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                   7
implement the practice of least privilege, whereby user access is restricted to the
minimum necessary to perform his or her job, and enforce a separation of duties so
steps in a critical function are divided among different individuals. It also emphasizes
the importance of management controls – such as individual accountability
requirements, separation of duties enforced by access controls, and limitations on the
processing privileges of individuals – to prevent and detect inappropriate or
unauthorized activities.

These issues, which were noted during the FY 2007 financial statement audit, could
result in the accidental or inappropriate alteration of the data used to support the
performance indicator. It should be noted, that during the audit, SSA management
began monitoring the programmers' access to the SSIRMS datasets. However,
because these internal control weaknesses existed during the period of review, we did
not find the performance indicator data to be reliable.

Number of periodic CDRs processed to determine continuing entitlement
based on disability

Indicator Background

Periodic CDRs are conducted through full medical reviews or beneficiary-completed
questionnaires (mailers). The type of CDR to be completed is determined by the
beneficiaries’ probability of medical improvement. Beneficiaries with a high probability
of medical improvement receive a full medical CDR.

A CDR begins when an FO receives an alert to review a beneficiary’s case folder,
containing background and medical information on the beneficiary, to determine
whether a full medical CDR should be performed. The FO is able to determine the need
for a full medical CDR, based on SSA policy. If unable to readily make that decision, it
is transferred to the State disability determination services (DDS). The folders identified
for full medical CDRs are also transferred to DDS for medical adjudication. The DDS
disability adjudicator reviews the folder to determine whether a full medical CDR should
be performed. If a full medical CDR is not performed, the beneficiary’s record is
updated in the Disability Control File and the case is not included in the performance
indicator count.

When a full medical CDR is completed by the DDS, the determination of “continuance,”
“cessation,” or “no decision” is input into the National Disability Determination Services
System (NDDSS). NDDSS transfers these data to the Disability Operational Data Store
(DIODS). DIODS produces the State Agency Operations Report on a monthly basis.
Refer to the following formula.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                       8
                                                      Total recorded medical CDRs less work-
 Total full medical CDRs processed              =
                                                      issue CDRs 22


CDR mailers are performed for beneficiaries who have a low probability of medical
improvement. These beneficiaries are identified through profiling, which is the process
in which the Office of Disability Determinations ranks all Title II and XVI recipients based
on the probability of cessation. The mailer forms request information about the
beneficiaries’ medical improvement, recent education or training, and recent attempts to
work or return to work. CDR mailers are tracked in the Office of Retirement and
Disability Policy. 23

Beneficiaries return completed CDR mailers to the WBDOC. The WBDOC reviews the
mailers for completeness and creates a data file to capture relevant information. The
data file is sent to the Office of Continuing Disability Reviews Support to process using
the beneficiary’s mailer responses. The possible outcomes for the mailer CDRs are

     •   deferred for a full medical review;
     •   full medical review;
     •   administrative closure; or
     •   Processing Center review.

The Office of Disability Determinations updates the Disability Control File to reflect the
results of the Office of Continuing Disability Reviews Support processing and
completion of the CDR mailers. Only completed CDR mailers that have been deferred
for a full medical review are included in the performance measure count. Refer to the
following formula.


Total completed CDR mailer                            Total completed CDR mailers that have
deferrals                                       =     been deferred for full medical review


The CDR Mailer Deferrals report produces the total deferred CDR mailers completed on
a monthly basis. The year-to-date total of the completed full medical CDRs on the
report is combined with the year-to-date total of the deferred CDR mailers and is
recorded in the PAR.



22
  A work-issue CDR is an unscheduled full medical review that is performed to evaluate the beneficiary’s
medical eligibility as a result of earnings being posted to the MEF against a beneficiary’s record. Since
these are not periodic CDRs, they are not included in the count.
23
  This function was previously performed by the Office of Disability and Income Security Programs, which
was part of a reorganization effective February 2008.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                    9
Performance Indicator Calculations


                                                         Total full medical CDRs processed
Total fiscal year-to-date CDRs                           for the period October 1, 2006 to
                                                   =
processed                                                September 28, 2007 plus the total
                                                         completed CDR mailer deferrals for the
                                                         period October 1, 2006 to September 30,
                                                         2007 24


Findings

Internal Controls and Data Reliability

Our review of access controls revealed the following issues.
• One programmer had unmonitored access to the MSSICS CICS transactions, and
  this access was not reviewed by SSA management.
• One programmer had update access to SSIRMS datasets, and this access was not
  restricted or reviewed by SSA management. 25
• Two users had excessive access to the NDDSS CICS transactions, and did not
  require this access to perform their job responsibilities. 26
• Programmers had update access to NDDSS production datasets, and did not
  require this access to perform their job responsibilities. 27

The SSA ISSH states, "Access to all SSA functions associated with software or
enterprise systems must be managed based on need-to-know and least privilege. This
specifically includes changes/updates to software, production jobs, and supporting
hardware deployments. This access control maintenance policy must be applied across
the SSA enterprise." 28 In addition, OMB Circular A-130 requires that agencies
implement the practice of least privilege whereby user access is restricted to the
minimum necessary to perform his or her job; and enforce a separation of duties so that
steps in a critical function are divided among different individuals. It also emphasizes
the importance of management controls – such as individual accountability


24
     The last processing day for CDR full medical data is the last Friday of FY 2007.
25
  SSA management assigned the profile to the individual’s secondary $id; therefore this finding was
remediated. A $id is the authentication method to access SSA's systems.
26
   SSA management appropriately updated all user access based on job responsibilities; therefore, this
finding was remediated.
27
   SSA management appropriately updated all user access based on job responsibilities; therefore, this
finding was remediated.
28
     SSA ISSH, Section 16.3, p. 49.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                     10
requirements, separation of duties enforced by access controls, and limitations on the
processing privileges of individuals – to prevent and detect inappropriate or
unauthorized activities.

These issues, which were noted during the FY 2007 financial statement audit, could
result in the accidental or inappropriate alteration of the data used to support the
performance indicator. It should be noted that during the audit, SSA management
began monitoring the programmers' access to the SSIRMS datasets and removed the
excessive application business user and programmer access to the NDDSS application.
However, because these internal control weaknesses existed during the period of
review, we did not find the performance indicator data to be reliable.

RECOMMENDATION
We recommend SSA:

    1. Consistently restrict access to CICS screens and datasets for ERMS, MSSICS,
       SSIRMS, and NDDSS based on the concept of least privilege access.

AGENCY COMMENTS
The Agency agreed with our recommendation. The Agency’s comments are included in
Appendix D.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                     11
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)
                                                                       Appendix A
Acronyms
Act                    Social Security Act
CDR                    Continuing Disability Review
CICS                   Customer Information Control System
DDS                    Disability Determination Services
DI                     Disability Insurance
DIODS                  Disability Operational Data Store
ERMS                   Earnings Record Maintenance System
FO                     Field Office
FY                     Fiscal Year
GAO                    Government Accountability Office
GPRA                   Government Performance and Results Act
IRS                    Internal Revenue Service
ISSH                   SSA Information System Security Handbook
MBR                    Master Beneficiary Record
MEF                    Master Earnings File
MSSICS                 Modernized Supplemental Security Income Claims System
NDDSS                  National Disability Determination Services System
OMB                    Office of Management and Budget
ORES                   Office of Research, Evaluation, and Statistics
OSM                    Office of Strategic Management
PAR                    Performance and Accountability Report
PEODS                  Post-Entitlement Operational Data Store
RZ                     Redetermination
SSIRMS                 Supplemental Security Income Records Maintenance System
SSA                    Social Security Administration
SSI                    Supplemental Security Income
SSR                    Supplemental Security Record
U.S.C.                 United States Code
WBDOC                  Wilkes-Barre Data Operations Center




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)
                                                                        Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and questions to SSA management. We also requested SSA to
provide various documents regarding the specific programs being measured as well as
the specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

•   Reviewed prior SSA, Office of the Inspector General and other reports related to
    SSA’s GPRA performance and related information systems.
•   Reviewed applicable laws, regulations and SSA policy.
•   Met with the appropriate SSA personnel to confirm our understanding of the
    performance indicator.
•   Flowcharted the process. (See Appendix C.)
•   Tested key controls related to manual or basic computerized processes (for
    example, spreadsheets or databases).
•   Conducted and evaluated tests of the automated and manual controls within and
    surrounding each of the critical applications to determine whether the tested controls
    were adequate to provide and maintain reliable data to be used when measuring the
    specific indicator.
•   Identified attributes, rules, and assumptions for each defined data element or source
    document.
•   Recalculated the metric or algorithm of the performance indicator to ensure
    mathematical accuracy.
•   Assessed the completeness and accuracy of the data to determine the data's
    reliability as they pertain to the objectives of the audit and intended use of the data.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicator appeared to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                     B-1
In addition to these steps, we specifically performed the following to test the indicator
included in this report.

Specific to the performance indicator, “Number of SSI [Supplemental Security
Income] disabled beneficiaries earning at least $100 per month"

   •   Inspected relevant policies and procedures as necessary.
   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas.
          o Ensured that monthly earnings information provided by the claimant were
             accurately posted to the Supplemental Security Record (SSR) by
             reviewing 45 redetermination (RZ) cases in the field offices (FO). RZs are
             a review of the beneficiaries’ non-medical eligibility factors (that is,
             income, resources and living arrangements) to ensure that they are still
             eligible for and are receiving the correct SSI payment. Documents, such
             as pay stubs, are reviewed and used to determine the beneficiaries’
             eligibility when applicable.
          o Ensured that monthly earnings information submitted by employers was
             complete and accurate by verifying that returned submissions were
             resubmitted in a timely fashion. Specifically, reviewed reports of
             unresolved items remaining for the current tax year and compared SSA
             earnings records to Internal Revenue Services earnings information.
          o Ensured that data extracts were complete, valid and restricted by review
             of programming logic and extract code, review of user access, and change
             control.
          o Completed application control reviews over the Modernized Supplemental
             Security Income Claims System (MSSICS), Supplemental Security
             Income Records Maintenance System (SSIRMS), and Earnings Record
             Maintenance System (ERMS).
          o Completed a general computer control review as it relates to MSSICS,
             SSIRMS and ERMS.
   •   Re-performed key processes within test environments to verify controls.

Specific to the performance indicator, “Number of Supplemental Security Income
(SSI) non-disability redeterminations processed"

   •   Inspected relevant policies and procedures as necessary.
   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas.
          o Ensured that RZs were completed in accordance to SSA policy by
             reviewing 45 RZ cases in FOs.
          o Ensured that data transferred from Post-Entitlement Operational Data
             Store (PEODS) was complete, accurate, valid, and restricted by
             re-performing reconciliations of data transfer to an Oracle database.
          o Completed application control reviews over MSSICS and SSIRMS, and
             PEODS.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                        B-2
          o Completed a general computer control review as it relates to MSSICS and
             SSIRMS.
   •   Re-performed key processes within test environments to verify controls.

Specific to the performance indicator, “Number of periodic CDRs [Continuing
Disability Reviews] processed to determine continuing entitlement based on
disability"

   •   Inspected relevant policies and procedures as necessary.
   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas.
            o Ensured that CDRs were complete and accurate by testing 45 full medical
              CDRs. Checked to verify that recently completed reviews were conducted
              correctly and whether the decision and completion date of the CDR was
              accurate on the SSR/ Master Beneficiary Record. In addition, reviewed
              high profile case files for full medical review.
            o Observed the CDR mailer process at the Wilkes-Barre Data Operations
              Center.
            o Completed application control review over National Disability
              Determination Services System and Disability Operational Data Store.
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       full medical reviews processed.
   •   Re-performed key processes to verify controls.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)              B-3
                                                                                                                         Appendix C

Flowchart of the Number of Supplemental Security Income
(SSI) Disabled Beneficiaries Earning at Least $100 per
Month


                   Data input of earnings,
                      manually or via
                        Modernized
                   Supplemental Security
                      Income Claims
                     System(MSSICS)


                                                            Earnings Record
                                                               Maintenance
                                                             System (ERMS)
               Supplemental Security Income
                                                             updates Master                      IRS File
               Records Maintenance System
                                                           Earnings File (MEF)                  Comparison
             (SSIRMS) processes earnings to
                                                              with data from
              the beneficiaries’ Supplemental
                                                           employers and the
                  Security Record (SSR)
                                                            Internal Revenue
                                                              Services (IRS)




                                                              MEF interfaces
                     SSR                                       with SSR and
                                                               alerts SSA to
                                                             resolve earnings
                                                               discrepancies




                SSR extract
               (Characteristic
               Extract Record
                  Format)




             Formatted into Excel
              Spreadsheet using
              Statistical Analysis
               Software (SAS)




              Compiled into SSI              Manual calculation              Results are               OSM publishes
                  Disabled                   of results in Excel          submitted to Office           results to the
               Recipients Who                 Spreadsheet for                of Strategic             Performance and
                Work Report                     Performance                 Management                 Accountability
                 (Table 7)                        Indicator                     (OSM)                   Report (PAR)




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                                             C-1
Flowchart of Supplemental Security Income (SSI) disabled
beneficiaries earning at least $100 per month - Narrative
    •   SSI beneficiaries provide Social Security Administration (SSA) field office (FO)
        staff with earnings information. FO staff inputs the unverified earnings
        information via direct input or via Modernized Supplemental Security Income
        Claims Systems (MSSICS).
    •   After receipt of the beneficiaries' earnings evidence (pay stubs for wages or a tax
        return for self-employment), SSA FO staff inputs verified earnings information
        into the Supplemental Security Record (SSR) via direct input or via MSSICS.
    •   SSI Records Maintenance System (SSIRMS) processes earnings information
        posted by FO staff to the beneficiaries’ SSR.
    •   The Earnings Record Maintenance System (ERMS) updates the Master Earnings
        File (MEF) with earnings data from employers and the Internal Revenue Service.
        SSA uses information in the MEF to determine if there are any unreported
        earnings or earnings discrepancies.
    •   The MEF interfaces with the SSR to provide SSI beneficiary earnings information
        in the form of MEF alerts/diaries every 4 months (October, February and June).
    •   SSIRMS processes earnings information to the beneficiaries’ SSR.
    •   On a quarterly basis, the Office of Research, Evaluation and Statistics (ORES)
        receives the data extract from the SSR in a Characteristic Extract Record Format
        from the Office of Applications and Supplemental Security Income Systems
        (OASSIS).
    •   ORES formats the data extract into an Excel file using Statistical Analysis
        Software.
    •   The quarterly results are compiled in a table (referred to as Table 7) and
        published annually in the SSI Disabled Recipients Who Work report by ORES.
    •   On a quarterly basis, ORES sends the Table 7 to the performance indicator
        owner in the Office of Disability Income Security Programs, Office of Program
        Development and Research.
    •   Office of Program Development and Research manually calculates the results of
        the SSI beneficiaries earning at least $100 per month using an excel
        spreadsheet.
    •   Office of Program Development and Research forwards the results to Office of
        Retirement and Disability Policy.
    •   Office of Retirement and Disability Policy (the Office of the Deputy
        Commissioner) reviews/approves and sends the results of the calculation to
        OSM. 1
    •   OSM publishes the results in the Performance and Accountability Report (PAR).




1
 This function was previously performed by the Office of Disability and Income Security Programs, which
was part of a reorganization effective February 2008.


Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                C-2
Flowchart of Supplemental Security Income (SSI) Non-
Disability Redeterminations (RZ) Processed



                                            Scheduled Redeterminations (RZs)

          Redetermination merge run system selects cases for
               scheduled redetermination and limited issue
            processing. Field Offices (FOs) and beginning in                  RZ data is entered
             October 2006 a Wilkes-Barre Data Operations                        in Modernized
              Center (WBDOC) handle high error cases. At                        Supplemental
             WBOC these cases are processed in the same                        Security Income       A
          manner as the low and middle error cases, but using                  Claims System
             different forms. FOs typically handle high-error                     (MSSICS)
          profile and WBDOC exclusion cases through face-to-                        (1 B)
                    face or telephone interview. (1 A)




                                    B
    Redetermination
   merge run system
    selects cases for                                          Mailers
         scheduled
     redetermination
    and limited issue                              Yes
   processing. Mailer           Is the form
   forms are returned           complete?
      to the WBDOC
       and manually
        reviewed for
      completeness.                           No
            (2 A)
                                                            Mailers are        The mailer record
                                 WBDOC                     scanned and         is sorted into one
                           employees follow-             reviewed through      of five categories:
                           up if any additional          an exception logic         automated
                            key information is              process that        completion, two
                            needed from the                compares the         WBDOC actions
                                  mailer.                 answers on the           and two FO
                                   (2 B)                    mailer to the            actions
                                                           Supplemental                (2 D)
                                                          Security Record
                                                               (SSR)
                                                                (2 C)
                                                                               WBDOC and FO          Completion
                                                                                 follow-up on          data is
                                                                               additional actions     posted to
                                                                                                                  A
                                                                                  needed to              the
                                                                                 complete RZ          MSSICS
                                                                                      (2 E)             (2 F)




                                                                                       B




                                            Unscheduled Redeterminations


              Events such as the death
              of an eligible spouse and                                              RZ data is
                                                    FO use form SSA-8203-
              the effectuation of certain                                            entered in
                                                      BK or MSSICS to                                A
                   appellate decisions                                                MSSICS
                                                       conduct the RZ.
               trigger unscheduled RZs                                                 (1 D)
                          (1 C)




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                                  C-3
Flowchart of SSI Non-Disability RZs Processed, continued

                               SSI Update
                             System updates
                            SSR with RZ case
                                data daily
                                  (3 A)


               A
                               SSI Update
                                                                   When a RZ is
                             System updates
                                                                  processed, the
                            Post-Entitlement
                                                                  case is updated
                            Operational Data
                                                                  and considered
                             Store (PEODS)
                                                                 “complete” in the
                            with RZ case data
                                                                     PEODS.
                                  daily
                                                                       (3 B)
                                  (3 A)


                            The information is
                            processed daily in
                             PMDWSTG1, an
                             Oracle database                   OEEAS checks the
                              maintained by               transaction count of the data
                            Office of Earnings,             received from PEODS for
                            Enumeration, and                     completeness.
                              Administrative                           (3 D)
                                  Systems
                                 (OEEAS).
                                   (3 C)



                            The information is
                             processed every
                                Friday on
                            PMDWSTG1 and
                                pushed to
                            PMDWQRY1, and
                             Oracle database
                                for users.
                                  (3 D)


                         Reports called RZSDO and
                     LISDO are run by Division of Cost
                      Allocation (DCA) monthly which
                       displays the information for the              DCA reviews the
                      indicator weekly or monthly and               information along
                          keeps totals of RZ cases                  with the REgional
                          available, completed, and                Office (RO) and FO
                                   pending.                        users for accuracy
                                                                           (3 E)
                                   (3 E)




                             PM amts shown
                             on RZSDO are
                             sent to Office of
                                 Strategic
                               Management
                                (OSM) and
                              reported in the
                                   PAR
                                   (3 F)




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                      C-4
Flowchart of Supplemental Security Income (SSI) Non-
Disability Redeterminations (RZ) Processed – Narrative
Scheduled RZs
  • Claims representatives at the Field Offices (FO) typically handle high-error profile
     redeterminations through face-to-face or telephone interviews. However,
     beginning in October 2006 a number of high error cases are also identified and
     released for Wilkes-Barre Data Operations Center (WBDOC) processing. These
     cases are processed in the same manner as the low and middle error cases, but
     using different forms.
  • The updated information is input via on-line entry to the Modernized
     Supplemental Security Income Claims System (MSSICS).
  • The Supplemental Security Record (SSR) is updated by overnight batch
     processing and the information is transferred using the SSI Update System to
     Post-Entitlement Operational Data Store (PEODS).

Mailers
  • WBDOC conducts RZs that have low and middle error profiles using computer
      generated mail-out forms to be completed and returned by the beneficiaries. In
      addition, beginning in October 2006 a number of high error cases are also
      identified and released for WBDOC processing. These cases are processed in
      the same manner as the low and middle error cases, but use forms Social
      Security Administration (SSA)-3988/3989-OCR rather than the SSA-8202-OCR.
  • Forms are manually reviewed for completeness.
  • Incomplete forms are followed up by WBDOC employees.
  • Mailers are scanned and reviewed through an exception logic process that
      compares the answers on the mailer to the SSR.
  • The mailer record is sorted into one of five categories: automated completion,
      two WBDOC actions and two FO actions.
  • WBDOC and FO follow up on additional actions needed to complete RZ.
  • If a complication develops in the case, the case is transferred to the servicing
      FO.
  • If “no change” is indicated, a completion indicator is posted to the SSR.
  • The SSR is updated by overnight batch processing and the information is
      transferred using the SSI Update System to PEODS.

Unscheduled RZs
  • Events such as the death of an eligible spouse and the effectuation of certain
     appellate decisions trigger unscheduled RZs.
  • FO uses form SSA-8203-BK or MSSICS to conduct the RZ similar to a scheduled
     RZ.
  • The updated information is input via on-line entry to the MSSICS.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                 C-5
   •   The SSR is updated by overnight batch processing and the information is
       transferred using the SSI Update System to PEODS.

After Batch Update
   • The SSR and PEODS are updated, the cases, identified by Social Security
       Numbers, are considered "complete" receipts in PEODS.
   • When the processing of a redetermination is done and updated by the FO in
       MSSICS, a completion count is taken.
   • PEODS redetermination data are updated automatically once a week.
   • The information is processed daily in the Title XVI Datawarehouse and available
       to users every Monday.
   • Once a month, the Division of Cost Accounting reviews the redetermination data
       on reports called the RZ SDO and LI SDO Reports and sends the completion
       data to the Office of Strategic Management, which is reported at year-end in
       SSA’s Performance and Accountability Report.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)              C-6
Flowchart of the Number of Periodic Continuing Disability
Reviews (CDR) Processed to Determine Continuing
Entitlement Based on Disability

            Full Medical Review Continuing Disability Reviews (CDRs)
                                                          Findings are
                                                          inputted into                                        Medical CDRs are
                            Cases forwarded
                                                            National                                           posted on monthly                    Total CDRs less
                               to Disability                                       Data transferred
 “Direct Releases”                                          Disability                                           State Agency                        the number of
                             Determination                                         from NDDSS to
   to initiate high                                      Determination                                         Operations Report                  recorded cases that
                            Services (DDS)                                             Disability
  profile cases for                                    Services System                                          (SAOR) Year to                       are work issue
                             from the Field                                        Operational Data
    Full Medical                                          (NDDSS) to                                           Date (YTD) report                    CDRs equals the
                             Office (FO) to                                         Store (DIODS)
   Review CDRs                                          report outcome                                           produced from                      Periodic Medical
                            perform medical                                              (1 B)
                                                         “continuance”,                                             DIODS                           CDRs processed
                              adjudication
                                                       and ”cessation”                                               (1 C)
                                                              (1 A)
                                                                                                                                                   The performance
                                                                                                                                                      measure is
                                   A               Update of decision and                                                                          reported monthly
                                                  completion date posted to                                                                           to Office of
                                                   Supplemental Security                                                                               Strategic
                                                  Record/Master Beneficiary                                                                          Management
                                                     Record (SSR/MBR)                                                                                   (OSM)


                      CDR Mailers                                                                                                                         B

                                                                                                            Update of mailer
     Mailer forms are                                                                                           data and
  returned to the Wilkes-                                                                                     determination
  Barre Data Operations                                          Yes                                       result to SSR/MBR
                                             Is the form
   Center (WBDOC) and
                                             complete?
  manually reviewed for
      completeness.
           (2 A)
                                                      No
                                                                                                      The mailer data is processed
                                                                                                       through decision logic at the
                                               WBDOC
                                                                                                   Central Office and a determination
                                         employees follow-                                                                                        Alerts are
                                                                                                     is made as either deferred, full
                                         up if any additional          Mailer goes through a                                                    generated for
                                                                                                     medical review, or Processing
                                          key information is           scanning process at                                                    cases marked for          A
                                                                                                    Center (PC) review. (PC review
                                          needed from the                  the WBDOC                                                            a full medical
                                                                                                     can make the determination to
                                                mailer.                                                                                             review
                                                                                                       defer, full medical review, or
                                                 (2 B)
                                                                                                          administrative closure.)
                                                                                                                    (2 C)




       The Performance Measure (PM)
                                                         Office of Disability                     The OCDRS CDR                      PC makes the
        data is pulled monthly from the
                                                   Determinations (ODD), OCDRS                 Tracking file queries the           determination that
        Office of Continuing Disability
                                                    CDR Tracking File is updated                Disability Control File              the case is a
         Reviews Support (OCDRS)
                                                      with deferral mailer data                 (DCF) for PC Review                   deferral and
       CDR Tracking Files by the CDR
                                                                (2 D)                                 deferrals                    updates the DCF
                   MI System




                                                                                                                                            PM 16
                                                                                                                                        calculation =
                      CDR MI System                        The mailer deferral                                                          total medical
                       Periodic CDR                         number from the                                                                 CDRs
                      Table is created                     table is reported to         B                     B                         processed +
                                                              OSM monthly                                                                CDR mailer
                                                                                                                                            cases
                                                                                                                                         recorded as
                                                                                                                                           deferred




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                                                                                                        C-7
Flowchart of Number of Periodic Continuing Disability
Reviews (CDR) Processed to Determine Continuing
Entitlement Based on Disability – Narrative
Periodic CDRs Processed

Full Medical Reviews
   • Field Offices (FO) forward the cases to the State disability determination services
      (DDS) to perform the medical adjudication.
   • Once a determination is made by the DDS, the findings are input into the
      National Disability Determination Services System (NDDSS) to report the
      outcome, either “continuance,” “cessation,” or “no decision” in the event of an
      administrative closure. Updates to decisions and completion dates are posted to
      the Supplemental Security Record (SSR) or Master Beneficiary Record (MBR).
   • The data is transferred from the NDDSS to the Disability Operational Data Store
      (DIODS).
   • The medical CDRs are posted monthly on a State Agency Operations Report
      year-to-date report, which is produced from the DIODS.
   • The information, available weekly but reported monthly to the Commissioner’s
      Tracking Report, is used to calculate the performance indicator. The total
      recorded CDRs less the number of recorded cases that are work issue CDRs
      equals the number of reported medical CDRs processed.

CDR Mailers
  • Once a scannable mailer is received by the Wilkes-Barre Data Operations Center
     (WBDOC), there is a preliminary screening for completeness.
  • Incomplete forms are followed up by WBDOC employees.
  • The mailer form is both scanned by equipment using optical character
     recognition and physically input/keyed to create a data file.
  • The data file is transmitted to National Computer Center (NCC) at the Central
     Office. NCC formats and names the file that is then passed along to the Office of
     Continuing Disability Reviews Support.
  • The Office of Continuing Disability Reviews Support processes the data through
     decision-logic. The decision logic considers the beneficiary’s mailer responses
     together with the profile score signifying high, moderate, or low likelihood of
     cessation due to medical improvement. The possible outcomes are either
     deferred, full medical review, administrative closure or Processing Center review.
     Updates of mailer data and determination results are input to SSR/MBR. Alerts
     are generated for cases marked for a full medical review.
  • The Office of Disability Determinations makes the appropriate input to update the
     Disability Control File to reflect the results of decision logic processing.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                 C-8
   •   The Processing Center can make a determination to defer or full medical review,
       or administrative closure.
   •   The Office of Continuing Disability Reviews Support CDR Tracking file queries
       the Disability Control File for Processing Center Review deferrals.
   •   The Office of Continuing Disability Reviews Support CDR Tracking File is
       updated with deferral mailer data.
   •   The performance indicator data is pulled monthly from the Office of Continuing
       Disability Reviews Support CDR Tracking Files using a FOCEXEC program.
   •   CDR Mailer Deferral Report (table) is created.
   •   The sections of the report are totaled on an EXCEL spreadsheet and reported to
       Office of Strategic Management monthly for the performance measure
       calculation.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)               C-9
                                                                       Appendix D
Agency Comments




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 30, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit:
           Postentitlement Actions” (A-15-07-17130)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the recommendation is
           attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




           Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“PERFORMANCE INDICATOR AUDIT: POSTENTITLEMENT ACTIONS”
(A-15-07-17130)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Consistently restrict access to the Customer Information Control System screens and datasets for
the Earnings Records Maintenance System, Modernized Supplemental Security Income Claims
System, Supplemental Security Income Records Maintenance System, and National Disability
Determination Services System based on the concept of least privilege access.

Comment

We agree. As the report notes, we have implemented corrective actions as these deficiencies
emerged. We continue to believe the security over our critical high-risk systems is very strong.




Performance Indicator Audit: Postentitlement Actions (A-15-07-17130)                          D-2
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
